TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Analyzing Taxpayer Errors Can Help to
                       Improve Forms and Instructions



                                       June 11, 2009

                           Reference Number: 2009-30-083




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   June 11, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Analyzing Taxpayer Errors Can Help to Improve
                               Forms and Instructions (Audit # 200830011)

 This report presents the results of our review to determine whether an analysis of Individual
 Master File 1 math error notices 2 could help the Internal Revenue Service (IRS) identify areas on
 its individual income tax forms and instructions that need improvement and/or clarity. This
 review was included in the Treasury Inspector General for Tax Administration Fiscal Year 2009
 Annual Audit Plan under the major management challenge of Processing Returns and
 Implementing Tax Law Changes.

 Impact on the Taxpayer
 Past estimates indicate that the IRS annually sends more than 7 million math error notices to
 taxpayers informing them that changes were made to their tax returns as a result of mathematical
 or clerical errors they made on their returns. Many of the errors are due to complex calculations
 and others are just simple mistakes. However, some errors could result from unclear or
 inadequate forms and instructions and could signal specific areas where the IRS could make
 improvements. Changes to tax forms and instructions could reduce some of the errors made by
 taxpayers on their individual income tax returns. Moreover, simplifying the filing process of
 taxpayers by clarifying forms and instructions increases compliance and reduces burden.




 1
   The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
 2
   A math error notice is sent to a taxpayer when the IRS makes a correction to a tax return to explain the changes to
 the taxpayer who filed the return. The notice explains the nature of the changes and how the changes affected the
 tax return.
                                         Analyzing Taxpayer Errors Can
                                     Help to Improve Forms and Instructions




Synopsis
The Tax Forms and Publications function has not effectively used an analysis of math errors
made by taxpayers to help identify improvements or needed changes to forms and instructions.
Math errors are mathematical or clerical errors (e.g., error on exemption computation, refund
amount incorrectly computed) made by taxpayers on their returns and are identified by the IRS
when the returns are processed. The IRS sends math error notices to taxpayers to inform them
that changes were made to their tax returns as a result of such errors.
To assess whether an analysis of math errors made on individual income tax returns could
identify areas on specific forms and instructions that need improvement, we identified the
10 most commonly issued math error notices related to 2005 U.S. Individual Income Tax
Returns (Form 1040) filed and processed during 2006. 3 We statistically sampled and reviewed
tax returns associated with those math error notices to attempt to identify the specific mistakes
the taxpayers had made. We then reviewed the forms and instructions related to those errors in
an attempt to determine what improvements could be made that might decrease the likelihood of
another taxpayer making the same mistake.
For some of the tax returns reviewed, we were unable to identify any changes or improvements
that could be made to either the forms or instructions that might reduce the number of taxpayer
errors. Some of the errors were made doing complex calculations, while others were just simple
mistakes. In those cases, the related forms and instructions appeared clear and informative.
However, based on the remaining tax returns reviewed, we found the opposite is often true. For
example, we identified a specific instance where a wording change made on the exemption line
of the 2005 Form 1040 contributed to a 123 percent spike in errors made by taxpayers. Then, a
subsequent change back to the original wording on the 2007 Form 1040 led to a corresponding
drop in errors.
By analyzing taxpayer errors, we identified three areas where modifying Form 1040 and its
associated instructions could reduce such errors. They included: 1) errors made computing the
exemption amount; 2) the omission of dependent Social Security Numbers or Individual
Taxpayer Identification Numbers; and 3) children claimed for the Child Tax Credit exceeding
the age limit. In addition, we believe that an indepth analysis of taxpayer errors could be an
effective method of improving forms and instructions and would also help determine what effect
changes made to forms and instructions have upon the taxpayers using them. For each of these
issues, we developed illustrations showing proposed changes to the Form 1040 that we believe
would reduce the errors in these areas. We presented our ideas to professional tax preparers in a
focus group setting. They provided us with their opinions and viewpoints as well as additional


3
  Processing year is the calendar year in which the tax return and other tax data are processed. Processing Year 2006
is comprised primarily of Tax Year 2005 returns; however, it may also consist of prior year returns.
                                                                                                                   2
                                   Analyzing Taxpayer Errors Can
                               Help to Improve Forms and Instructions



ideas they had for improvements. Overall, the focus groups’ reactions to our proposals were
positive and in some cases we incorporated their feedback into our recommended changes.

Recommendations
We recommended that the Director, Tax Forms and Publications, Wage and Investment
Division, consider additional analyses of the types and volumes of errors made by taxpayers as
part of the function’s obligation to improve forms and instructions. In addition, the Director, Tax
Forms and Publications, Wage and Investment Division, should take steps to improve current
individual income tax forms and reduce taxpayer errors by clearly denoting on the Form 1040
the purpose and description of the exemption line, that a Social Security Number or Individual
Taxpayer Identification Number is required for each dependent claimed as an exemption, and the
qualifying age requirement necessary to claim the Child Tax Credit.

Legislative Recommendation
Legislation is needed to allow for the judicious use of additional colors on tax returns and
instructions to highlight important warnings and information.

Response
IRS management agreed with three of the four recommendations addressed to the IRS. The Tax
Forms and Publications function intends to continue to analyze reports provided by the Wage
and Investment Division Research Office as part of its annual revision process. The function
plans to consider revisions to the exemption line and plans to modify the Child Tax Credit
column in the Exemptions section of Form 1040. The IRS disagreed with our specific
recommendation to add a statement that a Social Security Number or Individual Taxpayer
Identification Number is required for each dependent claimed as an exemption because there are
certain groups of taxpayers that are not required to provide these numbers. However,
management agreed to review the suggestions presented in our report to determine whether there
are other ways to highlight the need for these numbers on the tax returns. We agree with the
IRS’ approach.
Although the IRS did not comment on our legislative recommendation because it was outside of
the IRS’ jurisdiction, management agreed to conduct a review of the Forms 1040 to determine
where the IRS can more effectively use shading, bolding, and other changes, such as font sizes,
to highlight the most important areas of the tax forms. We will provide a copy of our report to
the Department of the Treasury, Office of Tax Policy for consideration. Management’s complete
response to the draft report is included as Appendix IV.


                                                                                                 3
                                 Analyzing Taxpayer Errors Can
                             Help to Improve Forms and Instructions



Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                             4
                                               Analyzing Taxpayer Errors Can
                                           Help to Improve Forms and Instructions




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Changes to Tax Forms and Instructions Could Reduce Some of the
          Errors Made by Taxpayers............................................................................Page 3
                    Recommendations 1 and 2: .............................................Page 11

                    Recommendations 3 through 5:.........................................Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Management’s Response to the Draft Report…...................Page 17
              Analyzing Taxpayer Errors Can
          Help to Improve Forms and Instructions




              Abbreviations

IRS     Internal Revenue Service
ITIN    Individual Taxpayer Identification Number
SSN     Social Security Number
TIGTA   Treasury Inspector General for Tax Administration
TY      Tax Year
                                          Analyzing Taxpayer Errors Can
                                      Help to Improve Forms and Instructions




                                             Background

When the Internal Revenue Service (IRS) identifies errors made by taxpayers on their individual
income tax returns, it sends math error notices 1 to the taxpayers to inform them that the IRS
made changes to their tax returns as a result of mathematical or clerical error(s) they made on
their returns. These notices explain the specific nature of the changes (e.g., error on exemption
computation, refund amount incorrectly computed) and include account statements showing how
the changes affect the returns. Each math error notice is
coded with a number, and the IRS tracks and compiles the
                                                                 We initiated this audit to assess
total numbers of notices it sends to taxpayers each year.
                                                                              whether an analysis of math
Past estimates from the IRS indicate that it sends more                          error notices issued to
                                                                               individual taxpayers could
than 100 million notices to taxpayers annually at a cost of                 identify areas on specific forms
$472 million, with about 60 percent of these costs                             and instructions that need
attributable to the downstream impact of issued notices                               improvement.
(i.e., handling subsequent correspondence, telephone calls,
and remittances from taxpayers). More than 7 million of
the notices issued by the IRS are math error notices.
We initiated this audit to assess whether an analysis of math error notices issued to individual
taxpayers could identify areas on specific forms and instructions that need improvement. We
identified the 10 most commonly issued math error notices related to 2005 U.S. Individual
Income Tax Returns (Form 1040) filed and processed during Processing Year 2006 2 (the 10 most
common notices accounted for more than 2.3 million errors) and analyzed a statistically valid
sample of the associated tax returns.
As part of this review, we developed illustrations showing possible changes to the forms that we
believed would reduce the taxpayers’ errors in these areas. We then presented our ideas to
professional preparers in a focus group setting. They provided us with their opinions and
viewpoints as well as additional ideas they had for improvements.




1
  A math error notice is sent to a taxpayer when the IRS makes a correction to a tax return to explain the changes to
the taxpayer who filed the return. The notice explains the nature of the changes and how the changes affected the
tax return. The ability to simply correct certain errors made by taxpayers originated out of the recognition that some
errors on tax returns did not justify the expense of an audit. Congress authorized the IRS to correct certain math
errors that appeared on the face of a tax return without opening an audit on the taxpayer.
2
  Processing year is the calendar year in which the tax return and other tax data are processed. Processing Year 2006
is comprised primarily of Tax Year 2005 returns; however, it may also consist of prior year income tax returns.
                                                                                                             Page 1
                                        Analyzing Taxpayer Errors Can
                                    Help to Improve Forms and Instructions



This audit was performed at the IRS Campus 3 in Ogden, Utah, and included reviews of tax
returns filed nationwide. It also included discussions with employees from the Tax Forms
and Publications, Submission Processing, Strategy and Finance, and Notice Gatekeeper
functions in the IRS Wage and Investment Division. The focus group discussions were
conducted during the 2008 IRS Nationwide Tax Forum in two locations: Las Vegas, Nevada,
and Manhattan, New York. The information was collected in a structured, yet interactive
manner that maximized the elicitation of the participants’ thoughts, opinions, and experiences.
The audit was performed during the period October 2007 through November 2008. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




3
 Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 2
                                          Analyzing Taxpayer Errors Can
                                      Help to Improve Forms and Instructions




                                       Results of Review

Changes to Tax Forms and Instructions Could Reduce Some of the
Errors Made by Taxpayers
The IRS’ Tax Forms and Publications function is responsible for creating, updating, and
improving all Federal tax forms and publications. The tax forms and their instructions should
inform individual taxpayers of their Federal tax obligations and enhance voluntary compliance
by making it as easy as possible for taxpayers to accurately complete the tax forms.
The Tax Forms and Publications function revises and improves forms and instructions based
upon customer satisfaction data, internal and external suggestions, and other information
resulting from information and data gathering efforts. It also maintains open communication
with other IRS functions to ensure that their needs pertaining to the tax forms and publications
programs are met. Although representatives from this function indicated they did consider
taxpayer errors and error volumes to help identify needed improvements or revisions to forms
and instructions, they acknowledged that they did not perform analyses similar to the analyses
discussed in this report.
For some of the tax returns reviewed, we were unable to identify any changes or improvements
that could be made to either the forms or instructions that might reduce the number of taxpayer
errors. Some of the errors were made doing complex calculations, while others were just simple
mistakes. In those cases, the related forms and instructions appeared clear and informative.
However, based on the remaining tax returns reviewed, we found the opposite is often true. For
example, we identified a specific instance where a wording change made on the exemption line
of the 2005 Form 1040 contributed to a 123 percent spike in errors made by taxpayers. Then, a
subsequent change back to the original wording on the 2007 Form 1040 led to a corresponding
drop in errors.
The exemption line on the 2004 Form 1040, line 41, reads “If line 37 is $107,025 or less,
multiply $3,100 by the total number of exemptions claimed on line 6d. If line 37 is over
$107,025, see the worksheet on page 33.” On the 2005 Form 1040, the exemption line (now
line 42) was changed to read “If line 38 is over $109,475, or you provided housing to a person
displaced by Hurricane Katrina, 4 see page 37. Otherwise, multiply $3,200 by the total number
of exemptions claimed on line 6d.” The errors made on this line jumped from 94,432 errors in

4
 Congress acted to provide tax relief for victims of Hurricane Katrina with the Katrina Emergency Tax Relief Act
of 2005 [Pub. L. No. 109-73, 119 Stat. 2016 (to be codified in scattered sections of 26 U.S.C.)]. Section 302 of this
Act allows taxpayers to claim an additional exemption amount for housing Hurricane Katrina victims.
                                                                                                              Page 3
                                           Analyzing Taxpayer Errors Can
                                       Help to Improve Forms and Instructions



Tax Year (TY) 2004 to 210,845 errors in TY 2005. The wording remained essentially the same
on the 2006 Form 1040 and the error volumes increased slightly. However, as shown in
Figure 1, it was not until the wording was changed back in TY 2007 to similar wording used in
TY 2004 that the volume of errors dropped back to TY 2004 rates.
                    Figure 1: Exemption Computation Errors by Tax Year 5




              Source: Treasury Inspector General for Tax Administration’s (TIGTA) Data Center
              Warehouse 2008. 6

The correlation above indicates that changes made to the wording of this line contributed to
taxpayer confusion and resulted in additional errors. Further analysis of this issue and
recommendations are presented later in this report.
If the IRS had been monitoring error rates and evaluating potential causes such as the
modifications it made, the IRS could have identified this problem, corrected it, and avoided
wording that results in mistakes in the future. As it is, the same wording that appears to have
contributed to the high error rates on the 2005 and 2006 Forms 1040 is included on the

5
  A tax return is typically processed the year following the tax year of the return (i.e., a 2005 tax return is processed
in 2006). Therefore, a processing year will also include an insignificant number of other prior year income tax
returns. The tax year volumes in this figure consist primarily of the tax year shown; however, they will also include
a small percentage of prior tax year returns.
6
  The Data Center Warehouse is a collection of IRS databases containing various types of taxpayer account
information that is maintained by the TIGTA for the purpose of analyzing data for ongoing audits.
                                                                                                                 Page 4
                                           Analyzing Taxpayer Errors Can
                                       Help to Improve Forms and Instructions



2008 Form 1040. [The 2008 Form 1040 is the return taxpayers will file for their individual taxes
during the current processing year 7 (2009).] Due to the flooding that occurred in the Midwest
during the summer of 2008, Congress passed legislation similar to that passed for the Hurricane
Katrina victims. As a result, the wording used on the exemption line on the 2008 Form 1040 has
been changed back to similar wording that confused taxpayers on the 2005 and 2006
Forms 1040. The exemption line on the 2008 Form 1040 reads, “If line 38 is over $119,975, or
you provided housing to a Midwestern displaced individual, see page 36. Otherwise, multiply
$3,500 by the total number of exemptions claimed on line 6d.”
We identified three areas where modifying Form 1040 and its associated instructions could
reduce taxpayer errors. They included: 1) errors made computing the exemption amount;
2) the omission of dependent Social Security Numbers (SSN) or Individual Taxpayer
Identification Numbers (ITIN); and 3) children claimed for the Child Tax Credit exceeding the
age limit. In addition, we believe that a regular analysis of taxpayer errors could be an effective
method of improving forms and instructions and would also help determine what effect changes
made to forms and instructions have upon the taxpayers using them.

The exemption line on the Form 1040 is not clearly labeled
Personal tax exemptions reduce taxable income on tax returns. For example, each personal tax
exemption that was claimed on the 2005 tax return was the equivalent of a $3,200 tax deduction.
Generally, a taxpayer is allowed one tax exemption for themselves, one for their spouse if
married, and one for each of their dependents.
As discussed previously, during Processing Year 2006 taxpayers made more than 210,000 errors
computing their exemption amounts on their Forms 1040. 8 A sample of these returns showed
that 68 percent of the taxpayers who made this error failed to claim any qualifying exemption
amount. That is, they left the exemption line blank even though they clearly qualified for an
exemption amount. We identified two possible explanations for this: 1) the purpose of this line
is not well identified; and, 2) the description of the line may obscure the line’s main purpose with
secondary information.
The exemption line on the Form 1040 has not been clearly labeled in the same manner as other
line items on the Form 1040 such as “Itemized deductions,” “Tax,” and “total tax.” These line
items are labeled using bold print and the purposes of the lines are clearly marked within the
descriptions. A similar label is not included for the exemption line.
We also believe that the purpose of the exemption line is made unclear with the way the
secondary information is presented, which may have caused taxpayers to believe it did not apply
to them. For TY 2005, the Form 1040 exemption line reads “If line 38 is over $109,475, or you


7
    Most taxpayers file their 2008 Forms 1040 during Calendar Year 2009.
8
    A vast majority of these were TY 2005 returns. An insignificant number may have been from prior tax years.
                                                                                                           Page 5
                                      Analyzing Taxpayer Errors Can
                                  Help to Improve Forms and Instructions



provided housing to a person displaced by Hurricane Katrina, see page 37. Otherwise, multiply
$3,200 by the total number of exemptions claimed on line 6d.”
Taxpayers who did not have adjusted gross income (line 38) over $109,475 or did not provide
housing to a person displaced by Hurricane Katrina, may have assumed, after reading the first
sentence, that this line did not apply to their tax situation and moved on to the next line. It is not
until the second sentence that taxpayers are told to multiply the number of exemptions by $3,200
(which is the main purpose of that line).
We believe the description used prior to TY 2005 and then again in TY 2007 provided a more
direct and, hence, a clearer explanation of the purpose of that line. In TY 2007, the line reads, “If
line 38 is $117,300 or less, multiply $3,400 by the total number of exemptions claimed on line
6d. If line 38 is over $117,300, see the worksheet on page 33.” (Wording used prior to
TY 2005 was not exact but very similar). Also, in the future, when the exemption amount is
affected by a single incidence such as a natural disaster, we believe the explanation should be
provided as secondary information on that line.
To illustrate our point and provide a discussion item at our focus groups, we modified the
exemption line on the 2005 Form 1040 to reflect the issues discussed above. We recognize that
it would be of little value to correct the 2005 Form 1040 at this point but the illustration is
provided as an example. Figure 2 shows the exemption line as it appears on the
2005 Form 1040. Figure 3 represents TIGTA’s modification.
                                 Figure 2: 2005 Exemption Line




Source: 2005 Form 1040.

                          Figure 3: 2005 Exemption Line - Modified




Source: TIGTA’s proposal to modify the 2005 Form 1040.

Focus group participants generally agreed the line should be clarified to include the
“Exemptions” title. They also agreed that when additional criteria are added to the exemption
line, the additional criteria should be provided as secondary information on that line.



                                                                                               Page 6
                                        Analyzing Taxpayer Errors Can
                                    Help to Improve Forms and Instructions



own suggestions which included placing the word “REQUIRED” in bold or in red ink in the
column where it requests the Dependant’s SSN/ITIN. They also suggested placing a watermark
image over the entry field stating “Valid SSN/ITIN Required to Claim Exemption.” We believe
that any of these proposals would help taxpayers understand that they are required to provide a
valid SSN/ITIN.
        Figure 5: Paid Preparers’ Suggested Changes to Exemptions Section




Source: Paid preparers’ proposals to modify the Exemptions section of the Form 1040.

We also discussed with the focus groups whether they believe the use of color is an effective and
beneficial method of calling attention to specific issues or areas of the tax forms that need extra
awareness. Currently, the IRS does not use different colors on their forms or in their instructions
as a means of calling attention to or highlighting specific issues. In a previous TIGTA report, 11
we noted that industry literature suggests using color to emphasize information on a document.
It suggests that red be used for warnings and critical items. The IRS currently uses two colors of
ink for each of the Individual Income Tax Return packages (1040 – blue/black, 1040A –
red/black, 1040EZ – green/black). Subsequent to negative publicity received when the IRS used
multiple colors on the 1995 tax packages to enhance the artwork on the package covers,
Congress provided in the Treasury Department Appropriations Act of 1997 that the IRS may use
only two colors of ink on tax packages. As a result, the IRS has not subsequently pursued the
use of an additional color to issue warnings and draw taxpayers’ attention to important issues on
the tax returns and instructions. The majority of participants in the focus groups agreed with our



11
 The Internal Revenue Service Could Enhance the Process for Implementing New Tax Legislation (Reference
Number 2000-40-029, dated March 6, 2000).
                                                                                                     Page 8
                                           Analyzing Taxpayer Errors Can
                                       Help to Improve Forms and Instructions



proposal to use color, while others suggested using different fonts, uppercase lettering, bold
letters, etc., to get taxpayers’ attention.
As part of this audit, we reviewed a sample of State tax returns to determine whether States
use color on their tax forms to draw attention to critical items. Overall, we found that
11 (55 percent) of the 20 States’ tax returns reviewed used color to draw attention or highlight an
area of importance on their tax forms and/or instructions. In most cases, the use of color
appeared to be an effective method of directing taxpayers to important areas of the tax forms or
providing a caution or a warning.

The Child Tax Credit age restrictions are not identified on the Form 1040
During Processing Year 2006, approximately 137,000 taxpayers were denied the Child Tax
Credit on their Forms 1040 12 because the child claimed for the Credit exceeded the age
requirement. The Child Tax Credit is a $1,000 Credit available to taxpayers for each of their
qualifying children. The child must first be considered a dependent and then meet other
qualifying criteria. One of the qualifying criteria is that the child must be under age 17 at the end
of the tax year.
In our sample, we found that almost 79 percent of those taxpayers that were denied the Credit
claimed a child that was 17 or 18 years old (61 percent claimed a child that was 17 years old).
This is an indicator that taxpayers may be unaware or confused as to when, or at what age, the
child no longer qualifies for the Credit.
The section on Form 1040 where taxpayers indicate that their children qualify for the Credit is
located in the “Exemptions” section. Likewise, the section of the Form 1040 instructions for
determining whether their child qualifies for the Credit is also located in the “Exemptions”
section under the subtitle “Line 6c-Dependents.” Since the maximum age for a child to qualify
for an Exemption is generally 18 years of age, and because these 2 issues have been combined on
both the Form and in the instructions, taxpayers may incorrectly assume the maximum age for
the Child Tax Credit is also 18.
To help taxpayers and to avoid confusing them, we believe that the qualifying birth dates for the
Child Tax Credit should be clearly identified on the Form 1040 itself near the column containing
the boxes to check whether the dependent(s) qualified for the Credit. We believe this would
serve as an effective notice or reminder of the age requirement.
We developed two illustrations showing possible solutions that we presented to the focus groups
we met with. One proposal included a watermark image on the column for the qualifying Child
Tax Credit stating that the child must be “born after” a certain year. We believe that using a
“born after” date, rather than just stating “must be under age 17,” is a quicker and clearer method
for taxpayers to determine whether their child qualifies for the Credit. (For the 2005 Form 1040,

12
     A vast majority of these were TY 2005 returns. An insignificant number may have been from prior tax years.
                                                                                                            Page 9
                                        Analyzing Taxpayer Errors Can
                                    Help to Improve Forms and Instructions



the “born after” date would be 1988. The date would need to be changed each year. For
example, TY 2008 would read “born after 1991.”) The other illustration presented to the focus
groups suggests including a “born after” date in the description and using red ink. A third
illustration was developed after the focus group discussions. See Figure 6 for all three
illustrations.
        Figure 6: Potential Changes to Exemptions Section – Child Tax Credit




Source: TIGTA’s proposals to modify the Child Tax Credit in the Exemptions section of the Form 1040.

The focus groups’ reactions to these options were positive overall and they believed that
including the age requirement on the Form itself would be beneficial. However, their most
common suggestion was to move the Child Tax Credit issue completely off page 1 of the
Form 1040 and move it to page 2 where the Credit is actually claimed. They believed that
combining the Child Tax Credit with the Exemptions amount causes confusion.
As previously mentioned, these two issues—the qualifications for Exemptions and the Child Tax
Credit—have been combined on both the Form 1040 and in the instructions. More specifically,
the Form 1040 has a separate line on page 2 to claim the Child Tax Credit amount, but the boxes

                                                                                                       Page 10
                                    Analyzing Taxpayer Errors Can
                                Help to Improve Forms and Instructions



used to indicate whether the taxpayer qualifies for the Credit are located on page 1 within the
Exemptions section of the Form.
Similarly, the Form 1040 instructions for determining whether a child qualifies for the Child Tax
Credit and the qualifying amount are in two separate areas of the instructions. One section is
specifically designated for computing the Child Tax Credit. The other is combined with the
Exemptions section and is included in the table used to determine if the child qualifies as a
dependent. The determination of whether a child qualifies is made in this section under the
heading “Does Your Qualifying Child Qualify You for the Child Tax Credit?”
We recognize that the amount of space on the Form 1040 is very limited and that moving the
Child Tax Credit area from page 1 of the Form 1040 to page 2 may not be feasible at this time.
However, combining the two issues that have differing requirements could be confusing to
taxpayers. Therefore, if or when the IRS develops an additional form to reduce the information
provided on the Form 1040, it should consider separating the two issues into their own sections
on both the Form and the instructions.

Recommendations
The Director, Tax Forms and Publications, Wage and Investment Division, should:
Recommendation 1: Consider additional analyses of the types and volumes of errors made
by taxpayers as part of the function’s obligation to improve forms and instructions. This could
help identify areas of potential improvement and help to ensure that changes to the forms and
instructions do not contribute to additional errors.
       Management’s Response: The IRS agreed that it will need to continuously consider
       how additional analyses of these math errors can improve forms and instructions. The
       Wage and Investment Division Research Office already conducts these types of analyses
       and will continue to do so. The Tax Forms and Publications function plans to continue to
       analyze the reports provided by the Research Office, as well as customer feedback and
       other internal and external data, as part of its annual revision process.
Recommendation 2: Modify the exemption line on the Form 1040 and ensure that the
purpose of the line is clearly labeled and the description of the line is clear and unambiguous.
       Management’s Response: IRS management plans to consider revisions to the
       exemption line after they review the error reports for TY 2008. They plan to analyze the
       reports to determine if the error rate for the exemption line has improved from that of
       TYs 2005 and 2006. If their analysis justifies it, they plan to consider making changes to
       the labeling and description of the exemption line.




                                                                                            Page 11
                                   Analyzing Taxpayer Errors Can
                               Help to Improve Forms and Instructions



Recommendation 3: Add a statement or notice to page 1 of the Form 1040, within the
“Exemptions” section, indicating that an SSN/ITIN is required for each dependent claimed as an
exemption.
       Management’s Response: IRS management disagreed with this recommendation
       because there are certain groups, such as the Amish, that are not required by law to
       provide an SSN or ITIN. However, they plan to review the suggestions presented in this
       report and the error reports for the 2008 tax returns to determine whether there are other
       ways to highlight the need for an SSN/ITIN for those required to provide one.
       Office of Audit Comment: We agree with the IRS’ approach to addressing this issue.
Recommendation 4: Add a statement or notice to page 1 of the Form 1040, near the column
used to mark whether the dependent(s) qualified for the Child Tax Credit, which clearly denotes
the qualifying age requirement for the Credit.
       Management’s Response: IRS management agreed with this recommendation.
       They plan to review the suggestions presented in the report and determine the best way to
       modify the Child Tax Credit column in the Exemptions section of Form 1040, so that it
       more clearly denotes the qualifying age requirement for the Credit.

Legislative Recommendation
Recommendation 5: Legislation is needed to allow for the judicious use of additional colors
on tax returns and instructions to highlight important warnings and information.
       Management’s Response: The IRS is not commenting on this recommendation.
       Matters of tax policy are within the jurisdiction of the Office of Tax Policy at the
       Department of the Treasury. However, management agreed to conduct a review of the
       Forms 1040 to determine where the IRS can more effectively use shading, bolding, and
       other changes, such as font sizes, to highlight the most important areas of the tax forms.
       Office of Audit Comment: We will provide a copy of our report to the Department of
       the Treasury, Office of Tax Policy for consideration of this legislative recommendation.




                                                                                           Page 12
                                          Analyzing Taxpayer Errors Can
                                      Help to Improve Forms and Instructions



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether an analysis of Individual Master
File 1 math error notices 2 could help the IRS identify areas on its individual income tax forms and
instructions that need improvement and/or clarity. To accomplish the objective, we:
I.       Determined whether the IRS has any procedures in place to evaluate whether notices
         being sent to taxpayers can be reduced by actions that can be taken by the IRS.
         A. Contacted IRS management to determine what procedures are currently in place to
            evaluate improvements that can be made to reduce the number of notices being sent
            to taxpayers.
         B. Discussed with IRS personnel what steps had been taken to evaluate simplification or
            clarification of current forms and publications.
         C. Contacted the Tax Forms and Publications function to determine the procedures it
            uses to determine which forms need updating for simplification.
         D. Determined whether there was an evaluation of math error notices to determine why
            they have a high occurrence rate.
         E. Determined whether any additional procedures should be performed by the IRS on a
            regular basis to improve this process.
II.      Determined the top 10 math error notices received by taxpayers on their tax returns.
         A. Obtained and evaluated IRS data regarding the math error codes 3 that result in a
            notice being sent to taxpayers. To determine the accuracy of the IRS data, we
            compared IRS statistics to the data available on TIGTA’s Data Center Warehouse. 4
         B. Identified from the Data Center Warehouse the total number of each math error code
            that resulted in a notice that was sent to taxpayers for Processing Years 2003 through
            2006.

1
  The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
2
  A math error notice is sent to a taxpayer when the IRS makes a correction to a tax return to explain the changes to
the taxpayer who filed the return. The notice explains the nature of the changes and how the changes affected the
tax return.
3
  The math error code is a three-digit code assigned to a short description of the changes contained in the math error
notice.
4
  The Data Center Warehouse is a collection of IRS databases containing various types of taxpayer account
information that is maintained by the TIGTA for the purpose of analyzing data for ongoing audits.
                                                                                                             Page 13
                                         Analyzing Taxpayer Errors Can
                                     Help to Improve Forms and Instructions



         C. Identified the top 10 Individual Master File math error notices sent to taxpayers in
            Processing Year 2006 and downloaded a database of those taxpayers that received
            these notices.
         D. From the top 10 Individual Master File math error notices, evaluated those that we
            believed the IRS could reduce or avoid as a result of changes or improvements to
            forms and/or instructions. From the tax returns with math error notices identified in
            Step II.C., we selected a statistical sample 5 of 385 returns from a population
            2,321,120. In selecting our sample, we used a confidence level of 95 percent, a
            precision rate of + 5 percent, and an expected error rate of 50 percent.
         E. Validated, verified, and assessed the reliability of the computer-processed data in
            Step II.C. by comparing the data from the database to information from the IRS
            Master File 6 and found the data to be valid and reliable.
         F. Analyzed 370 of the tax returns in the sample to determine the specific reason the
            taxpayer received the math error notice and evaluated whether there were
            improvements in education, forms, or instructions that could have been made to avoid
            a notice being mailed to the taxpayer.
III.     Determined whether State forms or instructions use of color could be used to reduce
         errors caused by a lack of clarity on the U.S. Individual Income Tax Return (Form 1040)
         by randomly selecting 20 States and reviewing the income tax forms and instructions for
         uses of color.
IV.      Obtained feedback from tax preparers regarding our proposed changes to Form 1040 that
         we believe would eliminate a significant number of errors many taxpayers make when
         completing their income tax returns by conducting focus group sessions at two of the six
         2008 IRS Nationwide Tax Forum locations (Las Vegas, Nevada, and Manhattan,
         New York).




5
  We selected a statistically valid sample because we wanted to project our results over the entire population of
accounts.
6
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                            Page 14
                                 Analyzing Taxpayer Errors Can
                             Help to Improve Forms and Instructions



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
Bill R. Russell, Audit Manager
L. Jeff Anderson, Lead Auditor
W. George Burleigh, Auditor
Laura Paulsen, Auditor
Roy E. Thompson, Auditor
James M. Allen, Information Technology Specialist




                                                                                    Page 15
                                 Analyzing Taxpayer Errors Can
                             Help to Improve Forms and Instructions



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Wage and Investment Division SE:W:S




                                                                                     Page 16
               Analyzing Taxpayer Errors Can
           Help to Improve Forms and Instructions



                                                Appendix IV

Management’s Response to the Draft Report




                                                     Page 17
    Analyzing Taxpayer Errors Can
Help to Improve Forms and Instructions




                                         Page 18
    Analyzing Taxpayer Errors Can
Help to Improve Forms and Instructions




                                         Page 19
    Analyzing Taxpayer Errors Can
Help to Improve Forms and Instructions




                                         Page 20
    Analyzing Taxpayer Errors Can
Help to Improve Forms and Instructions




                                         Page 21
